/ -

o

y/o( /-V
/~t O

No, 20-

2© ' -£°
IN THE

Supreme Court of the United States

Dora Renee Shean,
Petitioner,
v.
State of Florida, Et. A1 •9
Respon den ts.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE FLORIDA SUPREME COURT

PETITION FOR A WRIT OF CERTIORARI

Dora Renee Shean
Pro se Petitioner
1752 SW Old Wire Road
Lake City, FL 32024
mrsdshean@yahoo.com
(904) 505-4700

i*

QUESTIONS PRESENTED FOR REVIEW

1. Should the Government, with assistance of family courts, have the sole and
final say on the Frankensteining of the American Family? Does this deny
basic human rights set forth in the Fourteenth Amendment of the
Constitution.
2. At what stage of termination of parental rights, do parents actually lose their
parental rights? Removal of children, trial to terminate parental rights,
during search for appropriate adoptive families or a year(or set time) after
adoption has commenced?
3. Did Florida fail in its difference in treatment, between the petitioner (and her
family) and its similarly situated comparators and does it conflict with the
Court’s well-established standards which are applicable to equal protection
claims? The state is required to demonstrate a rational basis when it’s
treating similarly situated persons differently.

4. When a parent retains legal rights, even if children are not in their care is
their consent for adoption still valid. Can a judge revoke for other reasons
than duress or fraud?
5. Should a government employee be granted leave to ignore criminality of
another to perpetuate their end game?
6. Should AFSA be legal and allowable to sell children by putting a ransom on
every American and foreign child’s head. Rewards are given to adopt but not
keep intact. Should ASFA be found unconstitutional against basic human
rights?
7. Should our states be allowed to monetize our most vulnerable citizens,
children, and elderly, by judges and their crony lawyers and legal guardians?
8. Did Florida violate and discriminate in equal rights in interstate commerce.

9. ^Should grandparents have rights? Considering they begat their children who
begat their grandchildren. Should these be inalienable rights? Isn’t being a
grandparent the quintessential “life, liberty and pursuit of happiness”.
Especially when a parent encourages a relationship?
10._Per curium affirmed in lieu of a legitimate opinion. Is this showing bias for
the state and violating rights of due process and is a PCA denying a person’s
equally protected rights, especially when they raise the question that they
are? Is it not the state court’s responsibility to interpret the laws and be a
true separation of powers? Most importantly it is not a check and balances for
states and their actors to do the right thing. It is not self-serving and a
conflict of interest. Are they unconstitutional?

ii

LIST OF PARTIES TO THE PROCEEDING
Dora Renee Shean
Maternal Grandmother
State of Florida
A state held to the United States Constitution
Judge Ana Maria Garcia,
trial judge
Judge Brantley Clark,
trial judge
Daena Patrice Haun Legacy,
paternal grandparent of 2 of 4 grandchildren
Robert Legacy,
spouse of Mrs. Legacy, no biological relation
Florida Department of Children and Families
Guardian Ad Litem Program of Florida

iii

!

TABLE OF CONTENTS

Page
Questions Presented.,

1-11

Parties to Proceeding,

in

Table of Contents.......

IV

Table of Authorities

v-vii

Citations of Opinions

1

Basis of Jurisdiction.,

1-2

Constitutional Provisions

2

Introduction

2-8

Statement of Case

8 - 21

Reasons for Granting..........................

21 -23

Letter from a devoted Grandmother

24-30

Conclusion

30-32

Appendix
Appendix A: Opinion of the Florida Supreme Court
(February 3, 2021)
Page la

iv

TABLE OF AUTHORITIES

CASES
Page(s)
Board of Regents of St. Coll. u. Roth,
408 U.S. 564, 571 (1972).........
Coons- Anderson v Coons,
104 S.W. 3d, 630 (Texas 2003)

3

7

Ex Parte Beasley,
564 So. 2d 950, 952 (Ala 1990)

6

Ex Parte T. V.,
971 So. 2d 1 (Ala. 2007)

6

Geibe v. Geibe,
571 N.W. 2d 744 (Minn. Ct. App 1997)
Johnson v. City of Cincinnati
39 F. Supp 2d 103 (S.D. Ohio 1999)

8

3

Little v. Streater,
452 U.S.l, 13 (1981)

31

Meyer u. Nebraska,
262 U.S. 390, 399 (1923)

2

Moore v. City of East Cleveland,
431 U.S. 494, 499 (1977).,

3

Pierce v. Society of Sisters,
268 U.S. 510, 534-535 (1925)

2

Prince v. Massachusetts,
321 U.S. 158, 166 (1944)

2

Quilloin v. Walcott,
434 U.S. 246, 255 (1978)
re Adoption of a Minor Child,
593 So. 2d 185, 189 (Fla. 1991)

2

3

TABLE OF AUTHORITIES CONTINUED

CASES

Page(s)

Santosky v. Kramer,
455 U.S. 745 (1982)

passim

In re S.N.M.
912 So. 2d 368, 372 (Fla. 2d DCA 2005)
V.M. v. State Dep’t of Human Res.,
710 So. 2d 915, 921 (Ala. App. 1998)

6

Weinard v. Weinard,
260 Neb. 146, 152-153, 616 N.W. 2d 1, 6 (2000)

7

Y.G. v. Dep’t of Children and Families,
246 So. 2d 509 (Fla. 1st DCA 2018)

3

CONSTITUTION
U.S. Constitutional Amendment XIV, § 1

passim

STATUTES
28 U.S.C. § 1257 (a)

1

F.R. Civ. P. 24 (a)(2)

3

F.R. Civ. P. 1540(b)

3

FL § 63.0425(1)

31

FL § 63.082(6)(b)

3

Fla. R. Jud. Admin. 2.545(d)(1)(A)

8

Fla. R. Jud. P. 8.210(b)

1

vi

TABLE OF AUTHORITIES CONTINUED

OTHER AUTHORITIES/BOOKS

Pages

Black’s Law Dictionary
(10th Ed 2014)....

7

Child — Protection — Abduction Services, The Modern Mafia
Keefer, Dr. Eric...............................................................
Frankenstein, The Modern Prometheus
Shelly, Mary

vii

22

22

_ PETITION FOR A WRIT OF CERTIORARI
Petitioner, Dora Renee Shean, is respectfully submitting for review, this
petition for a writ of certiorari, from the final judgment of the Florida Supreme
Court.

STATEMENT OF THE BASIS OF THE JURISDICTION
OPINION BELOW
The ruling of the Florida First District Court of Appeals in 2019 was a per
curium affirmed, opinion, rehearing and rehearing en banc was denied. 1 Case
#ID18-02111 and Supreme Court case SC21-102.
When petitioner found out children were moved out of state prio r to
Brianna’s termination of parental rights, petitioner filed a second motion to
intervene and was denied based on a definition rule2 Request for reconsideration to
lower tribunal has been ignored to this date and was filed in February 2020.
Writ of Mandamus, case #lD20-2996, was denied by Florida Supreme Court
without legitimate opinion and ability to be reheard. Submitted as appendix 1.
JURISDICTION

1 Petitioner has requested via email and certified letter her entire case file and billing records but still has not
received them from adoption intermediary's law firm.
__
2 His ruling wasn't based on an actual law but what was a definition of a participant. Fla. R. Juv. P.8.210(b)
"Participant means any person who is not a party but who should receive notice off hearings involving the child"...

1

The Florida Supreme Court’s final judgment was entered on February 3,
2021 and denied a rehearing. Petitioner has raised the constitutional violations in
the trial court, the First DCA and the Florida Supreme Court. The jurisdiction of
this Court is invoked under 28 U.S.C. § 1257(a).
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Fourteenth Amendment to the United States Constitution provides: “All
persons born or naturalized in the United States, and subject to the jurisdiction
thereof, are citizens of the United States and of the State wherein they reside. No
State shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any State deprive any person
of life, liberty, or property, without due process of law, nor deny to any person
within its jurisdiction the equal protection of the laws.”

INTRODUCTION
Precedents have set that parents have a right to choose how to parent their
children and does not evaporate if they have not been model parents or temporarily
lost custody of their children. Santosky v. Kramer 455 U.S. 745 (1982). Precedents
have also been set in Prince v. Massachusetts, 321 U.S. 158, 166 (1944); Quilloin v.
Walcott, 434 U.S. 246, 255 (1978); Meyer v. Nebraska, 262 U.S 390, 399 (1923)
Pierce v Society of Sisters, 268 U.S. 510,, 534-535 (1925); When the petitioner’s
daughter(aka Brianna) signed consents for the petitioner to adopt her children,

2

which was submitted with two approved home studies 3 Mother never rescinded
consent and the trial court never found it to have been done in duress or by fraud.
Bay County, just ignored the consent, home studies and petition for private
adoption Case #2018DR00442DRXXXX. They denied petitioner’s motion to
intervene despite clearly established laws and precedent that supports her legal
right to do so Y. G. v. Dep’t of Children and Families 246 So. 3d 509 (Fla 1st DCA
2018) states “ upon a parent executing a consent for adoption, the trial court must
permit the adoption entity to intervene in the dependency case” and in FL
63.082(6)(b) which states the same and in re S.N.M. 912 So.2d 368, 372 (Fla 2d DCA
2005) was also reversed as it question FI 63.082(b)(6) Florida’s F.R Civ. P. 1.540(b)
and F.R. Civ. P. 24(a)(2) also allows petitioner to intervene and at this time she has
been denied thrice. In Board of Regents of St. Coll v. Roth, 408 U.S. 564, 571 (1972)
“grandparents can receive preference and notice in adoption proceedings” and in
Moore v City of East Cleveland, 431 U.S. 494. 499 (1977) and Johnson v City of
Cincinnati the courts have deemed the roles in the lives of grandchild-grandparent
relationships equally worthy of constitutional protection. That the rights are not
just limited to the nuclear family but may extend to those who perform parent like
functions and in an important precedent in Florida, the courts found in re Adoption
of a Minor Child 593 So. 2d 185, 189 (Fla. 1991) “the grandparents were legally
interested parties entitled to notice and an opportunity to be heard regarding the

3 First approved home study was done by Tara Lassi, DCF investigator. Second home study was done in 2018, by
Debra Fiewitt, M.S. of Sunshine State Adoption and Flome Study Services. Ms. Flewitt holds both an undergraduate
and graduate degree and has been licensed with the State of Florida for 20 years.
3

petitioner’s petition to adopt the “child”. DCF and lower tribunal judges consistently
filed falsified records which has been clearly documented in all court records. Bay
County denied motion to intervene based on four factors:
a. Petitioner’s spouses one-time nolle prossed misdemeanor strike from 2009.4
b. Petitioner, in or around 2002, had to temporarily allow DCF custody in
Massachusetts, to place her son into a group home to treat intermittent
explosive disorder, fire starting and bi-polar disorder. Since 1996, petitioner
was voluntarily involved with DCF to receive services for two disabled
children. From 1996 to 2006, she had an amicable and trusting relationship
with DCF and her rights were never terminated to any of her four children.
c. Falsified document that the Shean’s were evicted five times. 5
d. Allowing petitioner’s former spouse and son of minor child to rent a room.
Petitioner and Mr. Hayes have had an amicable, platonic
relationship/friendship since 2008.6
The Fourteenth Amendment also secures the right to equal protection when
others are similarly situated, and this is two pronged for petitioner:
a. With other Floridians

4 Incident was disclosed to both Ms. Lassi and Ms. Hewitt. Neither was concerned as it was never repeated, and
the case was dismissed.
5 Petitioner immediately submitted documentation to court to disprove the allegations. The Shean's were never
evicted, and these allegations were brought to the attention of Ms. Lassi and Hewitt and was informed that even if
they had been it was moot as the Shean's owned a 2200 square foot home on five acres.
6 Mr. Hayes' quarters are separated from the main house's bedrooms and has a separate entrance off the back of
the home. This is not a brother-husbands situation. The trial court also erred in stating that he was the father of an
adult son, the son is and was in high school. He will be a senior in the 2021 - 2022 school session.
4

b. With fairness regarding the other paternal grandparents.
Ignoring the consent for adoption, Judge Garcia and DCF proceeded with
terminating Brianna’s rights to her children in April of 2019, unbeknownst at
this time, the courts had approved an ICPC7 for the children to move out of
state. This clearly showed bias from Judge Garcia and a pre-determination
nearly a year prior to her terminating Brianna’s rights8
In August of 2019, Judge Garcia terminated Brianna’s rights by order.
Despite Brianna’s calls and emails to her attorney in Bay County, assigned
by Judge Garcia, he did not notify her of her termination until January 2020.
immediately in January 2020, Brianna filed numerous motions to vacate the
order, ineffectiveness of counsel, etc. They were all ignored in Bay Co by
Judge Clark. Brianna filed a Writ of Mandamus case #lD20-2703 which was
sent back to Judge Clark. Brianna then filed a Writ of Habeas Corpus to
Judge Clark who denied based on it was too late. Brianna filed another Writ
of Habeas Corpus and Writ of Mandamus to Florida’s First DCA case #1D203612 and they were denied. She appealed to the Florida Supreme Court
which was denied the day after petitioner’s was10. Her mistrust in the judicial

7 Interstate Compact for the Placement of Children.
8 This has been a vicious and cruel game of cat and mouse that DCF has played against the petitioner and her
daughter, that the attorneys hired or assigned to represent have joined in as well as the judges. Petitioner believes
that DCF, lawyers and judges have taken pleasure in the torment of the petitioner.
9 All documents proving was submitted to trial court and appellate. Copies of emails and certified letters were
included in documentation.
10 Petitioner also feel it necessary to mention that the PCA from the First DCA decision came the day prior to
Brianna's pre-trial hearing for the TPR trial.
5

- system, her disabilities and unsureness have her decliningjto submit a Writ
of Certiorari to this Court although she has justification to.
In persuasive cases Alabama courts have found and recognized that
the possibility of placing a child with a relative is a viable alternative to
terminating parental rights in Ex Parte T.V. 971 So. 2d 1 (Ala. 2007) and in
V.M. v. State Dep’t of Human Res., 710 So. 2d 915, 921 (Ala. Civ. App. 1998).
Also, in Ex Parte T.V., Id, found that T.V. improved conduct needed to be
noted, as for Brianna she has accomplished much prior to her termination:
has not violated her five-year probation that will expire in a few months, she
has maintained the same job and has been promoted several times. She did
her court ordered community service with in the first month or two. She has
obtained her license and a car and has a four-bedroom home. It also noted in
Ex Parte Beasley, 564 So. 2d 950, 952 (Ala. 1990) “a court should terminate
parental rights only in the most egregious of circumstances”.
Judge Garcia stated in her order that terminating Brianna’s rights
was the least restrictive, wouldn’t the least restrictive have been signing long
term guardianship to the petitioner, the biological maternal grandmother?
Despite Judge Garcia’s ruling denying petitioner’s motion to intervene and in
opposition to Florida statutes and rules:
None of her reasonings met the threshold to deny the petitioner’s motion to
intervene, placement and adoption.

6

For many years, the petitioner was the de facto parent and in loco parentis
due to the abandonment of the fathers caused by repetitive violations of parole and
stints in prison. Black’s Law Dictionary (10th Ed 2014) defines as “A non-parent
acting in loco parentis is an individual acting as a temporary guardian or caretaker
of the child, taking on all or some of the responsibilities of a parent”. In CoonsAnderson v. Anderson, 104 S.W. 3d 630 (Texas 2003) the court finds that “a person
standing in loco parentis to a child could have, under appropriate circumstances,
standing in a custody suit....” “...the purpose to create standing for those who have
developed and maintained a relationship with a child over time”. In Weinand v
Weinand, 260 Neb. 146, 152-153, 616 N. W. 2d 1,6 (2000) that court found “a person
standing in loco parentis to a child is one who has put himself or herself in the
situation of a lawful parent by assuming the obligations incident to the parental
relationship, without going through the formalities necessary to a legal adoption,
and the rights, duties and liabilities of such persons are the same as those of the
lawful parent”. To Brianna’s chagrin, the children also called the Shean’s “mommy
and daddy”11, most of their lives The first three children were born while living
with petitioner, she acted as their Lamaze and birth coach and fully financially
supported them. The second born father has not been identified to this day. She
lived with the petitioner from September 2010 until April 2010 (with her mother)
and then from June 2010 until January 2011( without mother) , then again from
November 2013 until August 2014 (without mother) and then from August 2014

11 This has been witnessed by numerous family members. As well as the fact that they have lived with the Shean's
for most of their lives up to March 2016.
7

until January 2015 (with mother) and then from January 2015 until March 2016
with petitioner which falls into the Florida law that grandparents have priority to
adoption.12 (add law here) This law here also gives the petitioner standing. In Geibe
v. Geibe, 571 N. W. 2d 744 (Minn. Ct. App. 1997) the court states “We find sound
practical reasons to adopt the view that common residency is a prerequisite to in
loco parents status.”
The Legacy’s at some point in 2019 or 2020 gave the children back to DCF
and they were adopted in July of 2020. Despite Florida law and precedents,
petitioner was not noticed of the adoption hearing Fla R. Jud. Admin
2.545(d)(l)(A)”Related Cases. The petitioner in a family case as defined in this rule
shall file with the court a notice of related cases.... A case is related when: it
involves any of the same parties, children or issues and it is pending at the time the
party files a family case....”. She had a private petition pending in Bay Co since
2018. We suspect the Bryan’s have adopted the children and they as the Legacy’s
have had their home studies illegally approved.

STATEMENT OF CASE

BACKGROUND

12 DCF falsified document, which by law must list last five addresses, knowing that most of those five years was
living with petitioner, they omitted them intentionally. They only listed the Legacy home and the home they lived
in Fountain, FL for four months, going back approximately one year.
8

In the spring of 2011, Brianna, with her two children moved in with Bobby F
Norris after just meeting.
Brianna was diagnosed with disabilities as a young child and was deemed
legally disabled and suffered with a severe learning disability and has not reached a
mental maturity. Her first child was born whilst living with petitioner and her
spouse. Her second child was born the following year, also while living with
petitioner and her spouse. Petitioner and spouse did not only financially support her
and her children, but they were also her Lamaze and birth coaches for her first
three children.13
In early 2011, petitioner and her spouse went to Pennsylvania as her spouse
(aka Mr. Shean) was given a great opportunity to build military helicopters at
Sikorsky in Coatesville. Brianna was left at petitioner’s home with Shean’s paying
all bills.
This was a six-month contract that would have paid a 15,000-dollar
longevity bonus. About a month into contract, Mrs. Legacy called petitioner and told
her that her son, who was babysitting while Brianna was working, had left the
infant child strapped into a car seat, in a dark room all day. she was hoarse from

13 The third child is Mr. Norris' and a shared granddaughter with the Legacy's, baby was born while father was
incarcerated. Mr. and Mrs. Legacy had no desire to be a part of this child's life from when she was born in October
2014 until DCF removal in August of 2016. When DCF dropped the children off at the Legacy's RV, having no legal
proof that she was related, Mrs. Legacy state to the petitioner that she did not know the four children's full names
and birthdates until the documents she received from DCF.

9

crying and her diaper area was raw. She informed petitioner that they needed to
return to Florida and get that child from her son.14
Petitioner’s son, daughter and Mr. Hayes drove through the night back to
Florida to pick up said child. Mr. Shean needed to stay another week or two to close
out that position.
The child thrived in our care and petitioner and family commenced a first
birthday party for the child in October of 2011. The party was perfect and in
attendance was The Shean’s, Mr. Hayes, and the Shean’s extended family. Who was
not in attendance was her elder brother, her mother, Mr. Norris, Mr., and Mrs.
Legacy (although they were all invited to this gathering and many more future
gatherings through 2016)15
In late 2011/early 2012 Brianna and Norris unannounced picked up the
baby. In tow was the eldest son who had some injuries we were concerned about.
DCF was contacted, 16who clearly was not concerned about Mr. Norris’ abuse
towards the children, including his two elder children who were abandoned by their
mother, Carly Marie Borkowski Norris Grice Bryan (aka Carly)17 She had to have
known Mr. Norris was an abusive drug addict as it has been documented since his

14 Petitioner is uncertain if Mrs. Legacy contacted DCF, if so they neglected to open a case despite Mr. Norris'
lengthy documented mental health and drug history.
15 At some point it appeared that the Petitioner would have her grandchild for some time and had Brianna sign a
letter stating petitioner had guardianship of the baby girl, this was signed by Brianna, petitioner, and another
adult. This document was submitted into trial court and to this date has never been rescinded or revoked.
16 Once again Bay County DCF failed to open a case for my grandchildren who were CHINS.
17 Ms. Bryan, per court documents filed for divorce from Mr. Norris on 2/3/12, against Christopher Grice on
3/19/13, she then in early 2013/late 2014 had a child with Mr. Bryan all prior to turning 30. Petitioner finds the
quick rebounding as unstable, unhealthy, and high risk.

10

teens. Also concerning that she knowingly left her two boys to be raised by Mr.
Norris, Brianna, and the Legacy’s for many years. Petitioner would also like to
make note that approximately once a month through 2011 and 2013, petitioner and
her spouse would travel six hours each way to pick up the children for days to
weeks. Each time the Shean’s would arrive to the Norris’ trailer, to pick up the
children, Carly’s two boys would be sitting on the couch under the window by the
front door, with their bags, lamenting that their mother never picked them up as
promised. Rumor had it Carly was at Paradise Bingo18
In late 2013 Mr. Norris’ had become a methamphetamine addict and Brianna
no longer wanting her children around Mr. Norris, had petitioner pick up her
children to live with the Shean’s. Mr. Norris met petitioner north of Panama City to
give us the children. With him was his fifteen-year-old neighbor that he was having
an affair with.19 Petitioner informed Brianna who was with Mr. Norris and she
decided for the Shean’s to have her children long term to keep them away from Mr.
Norris.
The children spent all holidays and birthdays with petitioner. The Legacy’s
never showed up for any celebrations, nor called or sent cards and presents the
entire time the grandchildren were with the Shean’s.

18 It was told to petitioner by Norris and Mrs. Legacy that Carly had gambled over ten thousand dollars Mr. Norris
received in a Social Security settlement.
19 It is believed that Mr. Norris has two other children in addition to the two he has with Carly and the two he has
with Brianna.

11

Despite the numerous lies in court by Mr. and Mrs. Legacy, the Legacy’s had
a minimal relationship with the four children. They never once attended any
holidays, births, or birthdays from 2011 to 2016. In fact, the Legacy’s and Carly
forbade at times for Brianna’s children to attend Carly’s children’s birthday parties
that they hosted.
In mid to late summer of 2014, the Shean’s returned to Sikorsky in PA.20
.While in PA, the petitioner received a call from DCF in Bay County. When the
Shean’s went to PA, Brianna allowed her daughter to go with the Shean’s but
wanted her son with her as she was staying home with a pregnancy. On an August
night, Brianna was at the hospital with pregnancy complications and Mr. Norris,
hating hospitals, left with her son. Sometime later, on the hot August night, Mr.
Norris passed out high at a gas station with the windows rolled up and child in the
back seat asleep. The attendant knocked on the window as Mr. Norris had fallen
asleep and not able to be awaken, attendant notified the police. The police searched
the car and found drugs, paraphernalia, and illegal weapons, including a loaded
gun.
DCF informed petitioner of the arrest of Mr. Norris and that if they did not
pick up Brianna and her two children, that they would be removing the children.
Petitioner spoke with Brianna and told her that she could move into her house, with

20 It is quite common for summer layoffs in the aviation field as obviously planes usage is in it's height in the
summer. Many summers the Shean's would go out of town. Usually, their granddaughter and son would travel
with them. Brianna would never let petitioner take her grandson, always just the granddaughter. Petitioner forlll
intents and purposes raised her granddaughter for most of her life.

12

the children on the grounds that when Mr. Norris was released from jail that she
would not reconcile.
In August, the three moved into the petitioner’s home again. A few months
later, Brianna and Mr. Norris’ daughter was born. Petitioner once again was the
birth coach as Mr. Norris was still incarcerated. The Legacy’s nor Carly showed up
to see the baby at birth. The biological grandchild of Mrs. Legacy and the half-sister
of Carly’s two sons. In fact, they denied that the child was Mr. Norris and wanted
no relationship with her.
Petitioner’s home has always been open to Mr. Norris and his family despite
she despised Mr. Norris. Petitioner never verbally assaulted Mr. Norris and
especially not in front of the children although The Legacy’s and Carly have done
the opposite to Brianna and in front of her children. Mrs. Legacy and Carly have
stalked the petitioner’s social media, verbally attacking her, and on multiple
occasions calling her the horrific word that begins with the letter “c” and ends with
a “t”. Petitioner had submitted copies of stalking and verbal assaults to the trial
court.
The eldest grandson was enrolled in the same elementary school as
petitioner’s minor son. In early 2015, the Shean’s were able to find a two-bedroom
trailer for Brianna and her three children and they assisted her with down
payments, utilities, et cetera. The home was fortunately around the corner from the
Shean’s home and zoned for the same school for petitioner’s grandson. Things were
going quite well and the Shean’s were assisting Brianna and the children with rides
13

to and from appointments and shopping needs. Shortly thereafter, Brianna allowed
Mr. Norris to move in.
As the school year waned in 2015, the school called DCF and retained the
eldest child due to a frisbee sided bruise on his side. The grandson was removed
from the home and given to the petitioner for some time while they did an
investigation. The Shean’s met all his needs while in their care. DCF closed the
cases for some odd reason without services, once again.
At this time, the eldest daughter came to live with us and visited her mother
one or two days a week. She lived with us most of her life and her father was not
known, so in loco parentis, we acted as her father. Late in 2015, my daughter gave
birth to a son with Mr. Norris, the Legacy’s nor Carly cared.
Christmas eve of 2015, Brianna, Norris, and children came to the Shean’s
home to spend the night. Norris had an early dinner of rib roast with the family
and then proceeded to go to his mother’s house alone. My daughter begged Mr.
Norris and Mrs. Legacy to go with and bring the children that they never met, Mrs.
Legacy and the other children, Mrs. Legacy adamantly refused to have Brianna and
her children in her home. Mrs. Legacy was raising Carly’s children. She used the
boys as a pawn to have a relationship with her son and in so dictated that Brianna
and her children do not accompany Norris for Christmas or he could not see his
sons. Petitioner witnessed this call as Norris had the call on speaker for Brianna to
hear that it was his mother’s decision. Norris was gone for approximately four
days.
14

In March of 2016 as Norris’ probation was getting closer to the end, Brianna
informed petitioner that they were wanting to return to Bay County. Petitioner
warned her DCF told her not to return and that Norris was wanting to return to his
drugs and friends. Brianna retrieved her daughter from petitioner’s house and
ended all communication.
Petitioner immediately drafted a lengthy letter21 to Bay County DCF and
school department about the fears and dangers she believes the family to be in.
Once again DCF failed this family and did not open a case and in a several months,
petitioners worst fears came to pass.
Almost two years to the date in 2016, Norris struck again. He was estranging
from Brianna and while visiting he told Brianna that he had put some Tylenol in a
drink for her, it in fact was methamphetamines. Brianna went in distress and
nearly died. She was found by her friends, who were paramedics. She barely had a
pulse and admitted into the hospital.22
DCF removed the children and the following day Mrs. Legacy and Molly
Potter, the DCF investigator, called the petitioner. They were adamant about the
Shean’s taking the children. Petitioner loves her grandchildren and would do

21 Letter dated March of 2016 was submitted into trial court. It always seemed as if the Legacy's never notified DCF
or law enforcement knowing all the time that their son was abusive, and drug addled.
22 Brianna alleges that Mr. Norris raped and mutilated her. Mr. Norris was never charged with these crimes.
Brianna also alleges that Officer Brent Patrick told her she deserved it because she was a bad mother. It is also
concerning that this police office also in his late 20s parlayed this job into a COO position at Gulf Coast Children's
Advocacy. Not only was he involved in this case but also Kathleen Graminski who was the CPI Supervisor at DCF is
now their Victim Services Program Coordinator and Dr. Julian Salinas is the Child Protection Team's Medical
Provider. It seems as if in Bay Co, it's a pay to play quid pro quo.

15

anything for them. This was mid-August 2016. For several days, petitioner
conversed with Mrs. Legacy and Ms. Potter via phone, text, and email. At the time,
the Shean’s were in their condo in South Carolina as it was summer, and Mr. Shean
was working manufacturing the Dreamliner.23
Mrs. Legacy and Ms. Potter insisted that petitioner return to her Florida
home immediately to do a home study. At the time the children were removed, Mr.
Norris did not have legal paternity in the Florida courts and paternity was not
established until sometime after the children were placed into DCF custody. Mrs.
Legacy also could not be in any relation to the first two children, nor did she have a
foster care license, or a required home study done when the children were
ultimately placed with her the same night they were removed.
Ms. Potter had no real proof that there was any relation to the children, they
just dropped the children off with her, with her word. It is quite documented with
DCF in Bay Co., that the petitioner is the mother of Brianna and the full biological
grandmother of her children. There was no legal foundation for Ms. Potter to leave
and place the petitioner’s grandchildren with Mrs. Legacy.
The following morning was the 72-hour required hearing, it was at that time
that Mrs. Legacy and Ms. Potter told the petitioner to get home to do the home
study. Petitioner informed them that she had to wait until her husband got home

23 These communications were submitted to trial court.

16

from work and then would drive the six hours home24 the Shean’s returned home
late that night and awaited the home study.
For the next few days, petitioner was in contact with Mrs. Legacy and Ms.
Potter in planning on having the children brought to her as the only biological
grandparent to all four of the children and the only constant in their lives. The
home study was commenced the following day for Mrs. Legacy and the day after for
petitioner. Both were approved rapidly. During these conversations Mrs. Legacy
was telling the petitioner that she is the best person to have the children that she
raised. While the petitioner was spending a thousand dollars on new baby gear,
clothing and most necessities needed for the children, Mrs. Legacy was asking for
handouts from friends, the community, and social media. Mrs. Legacy not only
indicated that she was too old and of poor health to raise all four children but that
she was destitute from being out of work and marked AWOL for seven months. 25
At about day four, Mrs. Legacy asked the petitioner if she could “keep the two
youngest children” and petitioner stated that Ms. Potter told her that she wanted
to keep all four children together as an intact family. Mrs. Legacy retorted that she
would “keep them all”. Petitioner was greatly concerned as she believed that Mrs.
Legacy wanted the children just to procure them for Norris’ in the eventuality that
he would be released soon from prison26. Petitioner emailed Ms. Potter for two

24 When Mr. Shean contracts, he does not get paid for days he misses from work, so he returned to S. Carolina to
give his notice. While in S. Carolina, Mr. Shean did his required finger printing (which he passed).
25 Texts and social media posts were submitted into trial court.
26 When Mr. Norris was eventually released, it is believed that he lived in one of four sheds or an RV on the
Legacy's property. Despite Mr. Legacy has a license and lived in the same county, the Legacy's still transported Mr.

17

weeks and they went unanswered. Home study was done, fingerprinting was done
and approved.
Petitioner finally heard back from Ms. Potter who stated the case was
transferred to Children’s Home Society (aka CHS) and that the case manager was
Jennifer Smith and to contact her. Petitioner spoke with Ms. Smith and was
informed that all the children would be staying with the Legacy’s and that the
Legacy’s wished to adopt all four children. I informed her that I was the biological
grandmother to all four and that I would be filing a complaint27. Petitioner filed a
complaint with CHS and was told that the decision is up to the judge and that
petitioner would need to speak with the judge about her intentions. Petitioner
inquired from Ms. Smith the next court date, and she refused to tell petitioner.
Petitioner went back to CHS and she then gave petitioner the information.
Court was approximately two weeks later in September 2016, in front of
Judge Clark in Bay County. Ms. Smith and DCF attorney Steven Barclay lied to
the judge28 and stated on record that not only was their no home study for maternal
grandparents but that they had been evicted five times29. Petitioner stood to motion
to intervene and to represent herself against the falsified records, but Judge Clark

Norris to and from court. DCF admitted that they never investigated if Mr. Norris was living there. Mr. Norris'
license listed his mother's address as his.
27 As of this date, petitioner has never received notice that she was not selected as placement for her
grandchildren. Legally she could have Administratively appealed this decision.
28 Ms. Smith was aware of the approved home study as she initially told petitioner that she could have
unsupervised visits, until she filed a complaint did it change to supervised. Emails to the effect were submitted into
trial court.
29 As mentioned prior, the Shean's were never evicted. The Shean's have been in a monogamous relationship since
2008.

18

denied her to speak, violating petitioner’s due process in the first of many. Judge
Clark ordered supervised visitation and drug testing prior to each visit despite no
criminal record nor drug history with the Shean’s violating their rights to privacy
and unwarranted search and seizure.
This is where the petitioner’s battle began to maintain her God given right to
a relationship with her grandchildren. In 2017, despite being together since 2008,
the Shean’s legally got married, purchased a 2200 square foot 4-6-bedroom house30
bought just for the children.31 The Shean’s also changed their name from Kiep to
Shean, which is the children’s surname, to maintain their identity. Petitioner also
hired an adoption intermediary and Brianna signed her parental rights to the
petitioner. Petitioner obtained an approved home study, required by Florida law.
In late 2017 the Shean’s and Brianna lost visitation of the children for
absolutely no legal reason despite Florida law. The Shean’s drove six hundred miles
round trip monthly for a supervised visit. The only way they could have this visit,
was a passed drug test, which the Shean’s passed every drug test32
By 2018 (and through 2020) petitioner having no criminal or drug history and
an upstanding citizen is not allowed unsupervised visits, supervised visits, letters
and cards (despite Florida law that clearly states she allowed all of these provisions)
and allowed only gift boxes mailed to the children, not able to send them to the

30 The Shean's did not need a house of this size for them and their minor son. To this date the grandchildren have
never stepped foot on the property that was bought for them.
31 DCF and GAL testified in court that Mrs. Legacy shared a bedroom with the non-related female child and that
Mr. Legacy shared a room with the non-related toddler boy and girl. This is in violation of Florida Foster Care Laws?
32 DCF was aware that Mr. Shean was an FAA repairman and passed all drug testing for FAA.

19

Legacy’s home free from Amazon, she had to repackage each monthly box at her
cost and mail it to DCF, who in turn with tax payers money resent the box to the
Legacy’s. Petitioner believes this is cruel and unusual punishment for her filing
complaints.
In 2018 petitioner was once again denied intervening despite clear legal
Florida laws, despite an approved home study and despite petitioner’s daughters
clear consent. Judge Garcia’s reasons were not within Florida laws and guidelines.
Petitioner appealed the decision and despite this is an important national matter,
denying grandparents adoption over strangers, the First District Court of Appeal
(aka 1st DCA) ruled per curium affirmed despite Judge Garcia violated every
Florida law that was in the petitioner’s favor. The 1st DCA refused a
reconsideration, an opinion, and a hearing en banc. Petitioner’s attorney failed to
appeal any further.
In 2018 Bay County was devastated by Hurricane Michael, which damaged
the Legacy’s home wherein they never returned to Florida. It is believed that
between 2016 and 2020 that the children have lived in four different (Florida,
Alabama, Texas, and Tennessee) and numerous homes. With the Shean’s the
children would have lived in one state, one home, one school and one family as the
Shean’s still own their Lake City home and never would have given the children up
to be adopted elsewhere.
In 2019, Brianna’s had a trial for a termination of parental rights. Her
lawyer did not meet with her or her witnesses and did not allow them to testify.
20

Judge Garcia for no legitimate reason forced the Shean’s to turn over their smart
phones to the bailiff, despite they were not in the court room. They were not able to
lock their phones despite the petitioner had legal files, emails, and other
communication on said phone. Brianna’s lawyer at this time was directly asked
where the children were, he lied knowing that an ICPC was done and submitted
into the court.
August of 2019, Judge Garcia terminated Brianna’s rights; however, the
courts nor her attorney notified her of this order until January of 2020. At this time
the trial court, 1st DCA and the Supreme Court of Florida is denying her her
protected rights to an appeal, claiming she surpassed the toll of time. She put in her
motions immediately, in January, for an appeal and notice of ineffectiveness of
counsel, yet the State of Florida is not allowing her an attorney nor an appeal.
In 2019, petitioner aware that the children were no longer in Florida and in
transitional housing, submitted numerous motions to Judge Clark who was back in
dependency court in Bay County as mentioned it was denied by rule and
reconsideration has been ignored.
REASONS FOR GRANTING THE PETITION
1.

The Petitioner believes that she (and her daughter) should be provided the

same provisions as everyone regarding the United States Constitution and statutes
The Florida Constitution and statutes. Why are they singled out where nothing
applies to them? Why aren’t they and hundreds of thousands of Americans in family

21

court, not given tire rights to equal protection and privacy? Why do some laws
apply, and some do not? How can the state pick and choose? In theory if the laws
don’t apply to the petitioner is she absolved of all penalties for not abiding by the
laws. Is petitioner allowed if pulled over for a traffic violation a get out of jail free
card, laminated to use in perpetuity? This is happening to thousands of families
across the country, these same judicial tactics.
The petitioner is also entitled to judicial fairness, even if despised, for no
legitimate reason by the trial court judges. Judge’s should not be self-serving for the
state’s financial interest only. They should be fair and not biased for the state.
2.

This petitioner has standing, it is ripe, and she is suffering great injury daily.

This is probably the most important matter to humanity. Families are what makes
most people want to do better, be better. Families are what makes people want to
maintain employment and abide by laws. The Government is Frankensteining33
families at a rapid rate.
3.

ASFA should be repealed and found not constitutional because it puts a

monetary amount on each child for the government to reap, it has no incentive to
stabilize and keep families intact. It frankly is a violation of human rights.

33 In Mary Shelly's Frankenstein, The Modern Prometheus, Dr. Victor Frankenstein took body parts from different
bodies and put together to make a monster. The Government is doing this to families and foster adopters have ~
many children from different families. Just like in Frankenstein, this is a recipe for disaster.
22

Statistics are that children have a 6x more likelihood to be murdered in foster
care than with biological family34. We must stop this atrocity on our children. When
will the government learn that taking children from families is devastating?
This matter must be addressed in our highest court. If we don’t we are
repeating the same mistake Australia made with the “Stolen Children” from 1905
until 1970s.
Leaving the matters of abuse in civil court does not fix the offender, it just
damages the children. Not finding a crime of abuse and allowing an abusive parent
to go on and create more children is a dereliction of duty to society.
4.

We must also find that the family court judges need to be aware of and make

sure that these families’ ADA and Civil rights are being maintained, as they
currently are not. Petitioner advocated strongly, with all involved, that Brianna
needed, an ADA advocate and plan situated for her mental disability and none had
been offered her.

34 The National Center on Child Abuse and Neglect reported that six times as many children died in foster care than
in the general public and the number is nearly 90% more likely to be abused in DCF custody than general public.
"Child Protection - Abduction Services: The Modern Mafia by Dr. Eric Keefer, D.D.

23

PERSONAL LETTER FROM A GRANDMOTHER FOR ALL
GRANDPARENTS UNNECESSARILY ALIENNATED

Dear Supreme Court Justices,
It is of great importance to me and other grandparents to have a relationship
with their grandchildren for the remainder of their lives. This is an inherent love
that not many in the animal kingdom have. Bonding. Why does the court have to
choose just one set of grandparents, why can’t they have two, three or four? Why
should love of a child(ren) be limited or restrictive? I am a firm believer that the
more love and nurture a child has, the more rounded a human being will become in
society.
I am pleading with your to please address the travesty of the governments
destruction of families in Frankensteining new, damaged families for profit. Judges
must see that extended families ae better than strangers.
My grandchildren were the world to me and taken from me for no reason. I
spent most of my life striving for my children and grandchildren to have the best
life. I have worked with mental health and educational professionals since 1995,1
know how to raise children, and how to advocate and meet their needs
appropriately.
24

I have gladly sacrificed for my children and grandchildren. My husband and I
with our daughter drove 600 miles round trip once a month to see the children, the
visits were supervised and drug tested, which was mortifying in the presence of a
stranger. Those were stopped not because we were doing anything wrong but
because our grandson was telling us of the abusive and toxic home he was in which
he believed he was being horribly treated and abused. I called the hotline after one
visit as he was in great fear of a “beating” for losing a spelling card, in the summer
on the transportation bus. The State of Florida threatened me with possible jail and
fines if I were to contact them again with my concerns.
Mrs. Legacy consistently lied in documents to the court and under oath that
she had a six-year relationship with the children, this is not the truth and there are
many witnesses to this fact. As mentioned prior, Mrs. Legacy did not know these
children’s birthdates of full legal names.
When all is done as required by DCF, visitation should increase, not
decrease, and then vanish. This was a concerted effort by DCF and the judges to
punish me for fighting for my grandchildren. In America, this is horrifically wrong.
For a judge to be so biased is an outright violation of the canons and oaths they
swore to. This wasn’t a concerted effort by just the trial court judges alone but
judges of the higher court. This is evident in the Per Curium affirmation when I was
denied the right to intervene despite well-established Florida laws and precedents.
It’s a horrible day, when you are a dedicated mother and grandmother and
looked at by the judicial system as someone who deserves to be hanged instead at
25

the gallows. I will never pretend to be the perfect person, but I have always strived
to do best for them. I was a single mother for seven years who put her children first,
I did not date much if at all and was not in a serious relationship until I met my
first husband (of 2). I dedicated my time to make sure that my children have the
best education and mental health treatment available to them. I stayed home most
weekends and nights with my children and grandchildren and always did special
outings with them and created special birthdays and holidays with traditions for
them, traditions that they are being denied. I have one remaining child still in high
school. This child not only has been on the honor roll for most of his life, but he is
also in the Beta Club and National Honor Society. I consistently receive raves of
how much my son is a genuinely great kid by all his teachers. I am proud of him, so
very. I have always enjoyed helping him with his projects such as ABC’s of history
and building a replica cotton gin.
This son has Tourette’s disorder, he has had to overcome some difficulties. He
has still achieved great academic success because of his parents dedication and his
extended family. When he was in the 6th grade he was one of 400 from his entire
school district of thousands chosen for a special academy in middle school. When he
left the academy to move to Lake City, FL, he was the only 8th grader in 9th grade
math, 9th grader in 10th grade math and so on. I mention this because, it takes good
parents to encourage a child to excel academically. I mention this because, I was the
mistreated grandmother and not given equal rights verses Mrs. Legacy, Mrs.
Legacy chose to pursue what she says is four degrees and continued to-date and

26

marry while she neglected her only child while he was in crisis growing up. Her only
child has been a drug addict and has a lengthy criminal record. I dedicated myself
to my children, one of who has bipolar disorder with intermittent explosive disorder.
He has never done drugs and has no criminal record. He has learned at his private
schools how to maintain the best life for him and without my ardent fight for him,
he could be another prison statistic like Mr. Norris.
I would like the courts to answer why wasn’t I given equally protected rights
from grandparent v grandparent? The Legacy’s were given everything and I was
given nothing despite my history with the children, despite what the unmarried
mother wishes for her children. I was their secondary caregiver, the other parent in
their life. My husband and I was their constant.
I come to you not to just preserve my lineage but every other in America. This
case and the poor handling of it by the State of Florida, is a serious matter for all
citizens. These tactics of taken children from parents for a financial benefit to the
state also goes on with the elderly. We must stop allowing judges to break
relationships between children and parents for not the best interest of but to line
politicians and lawyer’s pockets.
No human atrocity stays silent for long, this too shall go down in the history
books such as: Georgia Tann, Native American’s, African Slaves, Orphan Trains,
Australia’s Aborigines. All off these had children, their beloved children, stolen from
them for greed, bias, hate, prejudice, and only plain ignorance. We must stop
destroying our species offspring for the better “good” and the better “greed”
27

I will search for my babies until the day I die, they are my heart and soul. I
love them as much as any mother loves a child. We have driven to Texas twice and
my grandchildren are no longer with the Legacy’s. I fear they are with Carly Bryan,
who I witnessed abandon her children to an abusive, drug addict. I went dozens of
times to my daughter and Mr. Norris’ trailer in Panama City from 2011 through
2014 and never once did I see Mr. or Mrs. Legacy or Carly. My youngest daughter
has a wonder fiance and family. They have been together for a year and a half. I
have met and seen his immediate family many times, at my home, at their homes
and around town. I swear, on my honor, that Mr. Legacy nor Mrs. Legacy nor Carly
Bryan ever attended one of the family gathering, including birthdays. They were
always welcome, and they knew they were always welcome.
I believe that Mrs. Legacy wanted nothing to do with the children prior to
removal and decided that she wanted to procure the children for her son. She also
did not want Brianna to have her children, she did not want me to raise them. They
are not with her in Texas, and she did not adopt them despite it was a prerequisite
for placement. Once she realized that her son was going to jail for seven years, she
gave up on them. It wasn’t hard as she never wanted them to begin with, this is sad
as this was just a game of chess to her and my beloved grandchildren just a pawn.
Not only by Florida law was I first choice for adoption, but I was also never
notified per law of the adoption hearing. I had a petition for adoption and by law I
am supposed to be noticed and part of the hearing. Not only has DCF and the
Legacy’s been underhanded and sneaky in this entire matter but so has the trial
28

r

<■ > (4,

court, the appellate .court, and the Florida Supreme Court. I am angered with the
judicial system and can no longer trust them. I know my rights and I know the
laws; I am just not a lawyer. That is my only downfall.
The Florida courts website states: “The purpose of Florida’s District Courts of
Appeal is to provide the opportunity for thoughtful review of decisions of lower
tribunals by multi-judge panels. District Courts of Appeal correct harmful errors
and ensure that decisions are consistent with our rights and liberties. This process
contributes to the development, clarity and consistency of the law”. I did not see a
foot note that states (excludes Dora, Richard, and Brianna Shean). Yet, we never
received, not once, a thoughtful review, a correction of harmful errors, clarity, or
consistency of the law. I want these courts to tell me why doesn’t the laws of Florida
apply to us. Why doesn’t the constitution apply to us?
Let’s also think of these poor children ripped away from the only families
they’ve ever known. Imagine it was your child or grandchild to never be seen again.
To go to bed every night wondering where your precious babies lay their head.
Imagine you being stripped from the life you have only known and put in a greater
chance of a home that abuses you or makes you an indentured servant. How would
you feel? Chances are the only time you were separated from your family, the life
you knew was going off to college, but were you still able to see and maintain a
relationship with that family? Do you still know who you are and where you came
from? Do you or will you ever suffer from adoption trauma?

29

* 4 'A

Due to the .tactics at Brianna’s trial, I returned home due to the sadness and
stress with my first bout of psoriasis I have ever had in 50 years. This has caused
me a painful auto-immune disease.

CONCLUSION
Petitioner believes that these children that she helped facilitate to raise are
legally her children, illegally being kept from her, just needing a judge’s signature
not for approval but to make it legal. This entire case has been on the far end of
government overreach and intrusion. The mother says, “I still maintain my legally
rights, and I want my mother to raise my children” and the trial court says, “I am
going to defy every precedent and statute and just say no because I CAN” and the
higher courts just look the other way, ignoring petitioners Fourteenth Amendment
rights. This is poor judicial discretion and abuse of power. Santosky v Kramer,
supra cannot be ignored, parents have a right to their children’s over all wellbeing.
Petitioner believes the Legacy’s and Bryan’s would have been the last persons she
would have chosen to raise her children. In Mr. Norris’ batterer assessment that
was submitted into court, he stated that his mother and her husband were
alcoholics that abused him with ping pong paddles, until they broke on him. This
was ignored by the trial court. It is believed that Daena Jacks Haun Legacy has

30

4

f

■

4t

been married at least three times, her current relationship is volatile. Mr. Legacy in
Haskell, Texas needed the local police’s assistance in moving out35
This endeavor is remarkably close to the petitioner’s heart. She is not only
attempting to save her family but the nation’s. Re homing children to add to the
economy is a sad and pathetic way of doing it. Every politician in every state is
aware of this practice yet is hesitant to do the right thing because it puts billions of
dollars into the economy and creates jobs for the state. Our children and our
taxpayers cannot brunt this devastation on their future and we cannot keep using
social security funds to fund this with an open and unchecked wallet.
Petitioner believes that every wrong that was done to her daughter affects
her relationship with her grandchildren and the adoption that should have been
legalized. “The absence of dispute reflected this Court’s historical recognition that
freedom of personal choice in matters of family life is a fundamental liberty interest
protected by the Fourteenth Amendment”, Little v. Streater, 452 U.S. 1, 13 (1981)
as referenced in Santosky, supra. She had first priority per FL §63.0425(1) “When a
child who has lived with a grandparent for at least 6 months is placed for adoption
the agency or intermediary handling the adoption shall notify the grandparent of
the impending adoption before the petition for adoption is filed. If the grandparent

35 In January 2021, the Shean's drove to Texas to bring their grandchildren Christmas gifts as without warning, DCF
started returning the boxes we could send packed with gifts for the grandchildren. In requesting assistance to the
house, Haskell PD stated that they no longer believed the Legacy's were together or that there were children
residing there. We were informed that several days prior the police had to go there due to a domestic violence call
and had to assist Mr. Legacy in moving out of the residence.

31

*

>

t

petitions the court to adopt the child, the court shall give first priority for adoption
to that grandparent”.
“When the State moves to destroy weakened familial bonds, it must provide
the parents with fundamentally fair procedures” Santosky, supra.

For these reasons, The Court should grand the petition for a writ of
certiorari.

n

\o CitLi

!

Respectfully submitted,
Dora Renee Shean
Pro se Petitioner
1752 SW Old Wire Road
Lake City, FL 32024
mrsdshean@yahoo.com
(904) 505-4700

June 29, 2021

32

